CERTIFICATE OF SERVICE

I hereby certify that on this 2nd day of April, 2020, I served a copy of the Motion To Delay
Distribution of Petition for Writ of Certiorari on counsel for respondent by placing it in the United

States mail, first class postage prepaid, addressed to:

Craig S. Primis, Esq.

Kirkland & Ellis LLP

1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004

(202) 389-5000

    
     

I further certify that all parties required to be served have beet? se

Counsel for
